<html>
<title> - COUNTERNARCOTICS CONTRACTS IN LATIN AMERICA</title>
<body><pre>[Senate Hearing 111-982]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-982
 
              COUNTERNARCOTICS CONTRACTS IN LATIN AMERICA

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-941                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Missouri
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
JON TESTER, Montana                  JOHN McCAIN, Arizona
EDWARD E. KAUFMAN, Delaware          LINDSEY GRAHAM, South Carolina
                     Margaret Daum, Staff Director
                           Alan Kahn, Counsel
                  Bill Wright, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Brown................................................     3
    Senator Pryor................................................     4
    Senator McCain...............................................    17
Prepared statements:
    Senator McCaskill............................................    37
    Senator Brown................................................    39
    Senator Pryor................................................    42

                               WITNESSES
                         Thursday, May 20, 2010

Hon. David T. Johnson, Assistant Secretary for International 
  Narcotics and Law Enforcement Affairs, U.S. Department of State     4
William F. Wechsler, Deputy Assistant Secretary for 
  Counternarcotics and Global Threats, U.S. Department of Defense     6

                     Alphabetical List of Witnesses

Johnson, Hon. David T.:
    Testimony....................................................     4
    Prepared statement...........................................    43
Wechsler, Willilam F.:
    Testimony....................................................     6
    Prepared statement...........................................    56

                                APPENDIX

Questions and responses submitted for the Record from:
    Mr. Johnson..................................................    75
    Mr. Wechsler.................................................    98

 
              COUNTERNARCOTICS CONTRACTS IN LATIN AMERICA

                              ----------                              


                         THURSDAY, MAY 20, 2010

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Pryor, Brown, and McCain.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will now come to order. The 
purpose of this morning's hearing is to examine how the U.S. 
Government is using contractors to fight the drug war in Latin 
America.
    The U.S. Government has been involved in counternarcotics 
activities in Latin America for more than 30 years. From 2000 
to 2008, the bulk of the counternarcotics assistance to Latin 
America was through Plan Colombia, a multi-year assistance 
package that was targeting Colombia, Peru, and Bolivia. In the 
last 2 years, the Merida Initiative, which focuses on 
assistance to Mexico, has also increased in importance. Over 
the last decade, the U.S. taxpayers have spent billions of 
dollars on counternarcotics activities in the region. The 
President has asked for an additional $6 billion for 
international counternarcotics and drug interdiction in 2011.
    I understand that much of this money is currently being 
spent under contracts with companies like DynCorp and Lockheed 
Martin. Contractors have been hired to spray the drugs under 
cultivation. They have been hired to work in government 
ministries. They have been hired to help with intelligence for 
drug trafficking, help support the local army and police, and 
maintain bases where American troops live and work in Latin 
America.
    Their efforts are crucial to the success of the United 
States' mission in Latin America. But there is really almost no 
transparency into what these contractors are doing or how much 
we are paying them. It appears that there has been insufficient 
oversight of these types of contracts. It is very important 
that contracts like this have sufficient oversight so that the 
contractors are accountable and we are assured that the 
taxpayers' money is not being wasted.
    This oversight is particularly important right now because 
the United States is ramping up counternarcotics activities in 
Afghanistan. The same Federal agencies and many of the same 
contractors are performing the work in both places. We need to 
understand what lessons we need to learn from Latin America so 
that we can apply them appropriately in Afghanistan.
    That is why at the beginning of this year the Subcommittee 
began an investigation into counternarcotics contracts. We 
wanted to know the answers to just a few very basic questions: 
What are we spending on the contracts? What are the contractors 
doing? And are we getting what we paid for? Do we have 
performance measures that are in place? And are we tracking 
performance measures as to how the contractors are performing 
this work and if we are getting any value out of the dollars 
that we have spent?
    We asked for this information from the State Department and 
the Defense Department more than 3 months ago. Despite our 
repeated requests, neither Department has been able to answer 
our questions as of the date of this hearing.
    And just so we are clear on the record, I am perfectly 
aware of the strains that hearings like this cause within an 
agency. I understand that it is not a day of celebration when 
you find out that a hearing like this is going to occur. It 
means additional work, additional effort. But because the 
requests here are so basic and, frankly, the notion that they 
would be so hard to get is part and parcel part of the problem.
    Let me just put on the record the basic information that we 
wanted to get. We wanted to get the contractor's name, contract 
number, the extent of competition, the scope of the work, the 
contract ceiling, and the dollar amount obligated.
    Now, that is not the sun, the moon, and the stars. That is 
Basic Contracting 101.
    The second area where we requested information was 
evaluations that had been done of the contractors, reports 
concerning the contractors, audits that had been done of the 
contractors' work, and evaluations of the contractors.
    The third area we asked for was some information about the 
need for the contract. Why is this something we must contract 
out? Why is this not something that we can perform as an 
inherently governmental function? The use of contractors, the 
scope of their contracts, and the duration of their contracts.
    And, finally, the last category was communication and legal 
analysis regarding the use of contractors. Four simple areas. 
We were not asking for an analysis of how much money you spent 
in 2009 versus 2001 in real dollars and how much was 
attributable to--we did not ask for the details of any 
performance payments you had given to the contractors. This is 
pretty basic stuff. And none of these requests have been met in 
full. None, after 3\1/2\ months of these requests being made.
    Instead, the Subcommittee has received information about 
contracts which appears to contradict the Departments' own 
regular reports to the congressional Appropriations and Foreign 
Relations Committees. I have to congratulate the staff here 
because some of the information we got, if they had not gone on 
their own and double-checked other places where the Departments 
have to report, we would have not realized the extent of how 
inadequate the response to this document request was.
    The State Department appears to have underreported its 
contracts to the Subcommittee by hundreds of millions of 
dollars for Colombia alone. And the Subcommittee also learned 
that the Defense Department hired a contractor to handle this 
hearing. Are you kidding me? Have we gotten to that point that 
we have to hire a contractor to prepare for a Subcommittee on 
Contracting Oversight hearing? Does anybody else feel that you 
are in a hall of mirrors in a fun house? I know that we have 
spent $50,000 on contractors to prepare for this hearing at the 
Defense Department.
    What I asked for, there should be somebody in charge of 
contract oversight that could produce the documents easily in 
30 days. Instead, we are hiring contractors to do it for us.
    Today, I plan to ask these basic questions that the 
document request reflected. I plan to listen to the testimony, 
and I hope that the witnesses will be able to help the 
Subcommittee conduct this important oversight today and in the 
future.
    What we learn today will inform the Subcommittee whether we 
should move to authorize subpoenas for this information. I hope 
the State Department and the Defense Department will be able to 
provide the information we need. I wish I were more optimistic. 
What we have to figure out here is: Is this basic information 
unavailable because the Departments are incapable of producing 
it or incompetent? Because it is only one of two answers. If 
you are incapable of producing it, then we have a serious issue 
on contracting oversight. And, obviously, if you are 
incompetent and cannot produce it, we have a serious problem in 
terms of counternarcotics strategy and how it is being 
implemented.
    I do not want to use subpoenas. This should be a 
cooperative exercise. But I will not hesitate, and I know that 
my Ranking Member feels the same way. I know Senator Brown 
feels the same way. I will not hesitate to use subpoenas 
because this is important, and it is billions and billions of 
dollars. And we need to get to a point where the appropriators 
say no more money until you are at least capable of showing us 
how you have spent what you got.
    I want to thank our witnesses for being here, and I look 
forward to our discussion today.
    Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Madam Chairman. I want to welcome 
everybody again. Madam Chairman, I want to thank you for 
holding this hearing. I will offer my opening in the form of a 
written statement, which I would ask be accepted, and then I 
would just as soon get on with the business.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Brown appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Senator McCaskill. Thank you.
    Senator Brown. Thank you.
    Senator McCaskill. Senator Pryor, thanks for joining us. 
Would you like to make any comments for the record before we 
begin the witnesses' testimony?

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Well, thank you. I do have an opening 
statement for the record, but I want to thank you for your 
leadership on this because we owe it to the American taxpayer 
to make sure that people know where their Federal tax dollars 
are going, and I think there is a pervasive problem with 
contracting around the Federal Government, and I just 
appreciate your leadership on this.
    Senator McCaskill. Thank you. Thank you very much, Senator 
Pryor.
    Let me introduce the witnesses today. David Johnson has 
served as the Assistant Secretary for the Bureau of 
International Narcotics and Law Enforcement Affairs at the 
State Department since October 2007. In addition to numerous 
other distinguished posts within the Federal Government, Mr. 
Johnson served as Afghan Coordinator for the United States from 
May 2002 to July 2003.
    William Wechsler is the Deputy Assistant Secretary of 
Defense for Counternarcotics and Global Threats. In that 
capacity he leads the Department's counternarcotics policies 
and operations around the world. Mr. Wechsler has previously 
served as Special Adviser to the Secretary of the Treasury and 
on the staff of the National Security Council.
    It is the custom of the Subcommittee to swear in all 
witnesses that appear before us, so if you do not mind, I would 
ask you to stand. Do you swear that the testimony you will give 
before this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Johnson. I do.
    Mr. Wechsler. I do.
    Senator McCaskill. Thank you very much. Let the record 
reflect that the witnesses have answered in the affirmative.
    We would ask that you try to keep your oral testimony to 
around 5 minutes, and your written testimony will obviously be 
printed in the record in its entirety. Thank you very much. Mr. 
Johnson.

  TESTIMONY HON. DAVID T. JOHNSON,\1\ ASSISTANT SECRETARY FOR 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Johnson. Thank you. Madam Chairman, Ranking Member 
Brown, and Senator Pryor, thank you for the opportunity you are 
giving us today to testify on the United States' 
counternarcotics efforts in Latin America.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    Anyone looking at news south of our border knows that drug-
related violence is spiraling. Drug-trafficking organizations 
have shown time and again that they have no decency or respect 
for the law or human life, and the increasing violence 
currently that we are seeing in Mexico is emblematic of these 
cartels' disregard for anything but profit.
    It is hard to overstate the impact that this kind of 
violence and crime can have. The individual tragedies we hear 
about on a daily basis, such as innocent lives lost in cartel 
cross fire, rip at the fabric of families and communities. This 
undermines public security, weakens government institutions, 
and, if left unchecked, provides a breeding ground for 
narcotraffickers and other threats to our own national 
security.
    As the State Department's Assistant Secretary for 
International Narcotics and Law Enforcement Affairs (INL), much 
of the work that I do involves foreign assistance programs to 
isolate and minimize drug-trafficking organizations. Each of 
our programs in Latin America is unique to the country it 
supports. They are built hand-in-hand with our partners to 
strengthen their own capacity for law enforcement and the rule 
of law, creating strong systems of governance that empower 
communities and seek to suffocate narcotics enterprises.
    While each program is unique, there are some important 
common features, including our on-the-ground contract oversight 
elements. We operate narcotics affairs sections within the U.S. 
embassies of our largest program countries, including both 
Colombia and Mexico. These offices, which include Foreign 
Service officers, civil service officers, and locally engaged 
staff, work with host nation representatives to develop the 
scope of our assistance projects and draft the requirements 
needed to achieve these goals.
    Approximately one out of every eight people who work for us 
in Central and South America directly in our offices or in the 
field has received training as a contracting officer's 
representative, a knowledge set that empowers our program staff 
to be efficient and effective stewards of the taxpayers' 
dollars dedicated to the foreign assistance programs they 
support. Our single largest allotment of contracting officer's 
representatives trained staff, 43 in total, help to oversee 
INL's Colombia programs.
    After more than 10 years supporting Colombians in their 
quest to provide greater security in their country, the 
Government of Colombia has taken steps to self-administer the 
counternarcotics eradication and alternative development 
programs that the United States helped to introduce. Colombia 
President Uribe's consolidation plan is to nationalize our 
joint programs, and that is now Colombian Government and U.S. 
Government policy.
    As a result, our programs in Colombia have been able to 
reduce their footprint considerably, scaling back our contract 
personnel implementers on the ground from 1,200 in 2006 to 
fewer than 600 in 2010.
    We see similar program cooperation from our Mexican 
counterparts who are equally engaged in leading the Merida 
Initiative planning and implementation process. In fact, 
bilateral meetings are held on a monthly basis to discuss 
progress on each of the 46 Merida projects which are 
extensively negotiated each fiscal year. In order effectively 
to oversee this program, INL has enlarged our officer in Mexico 
from 21 people in 2008 to 77 slots this year, more than 60 of 
which are already filled. Twenty-eight of the personnel 
currently in Mexico have received contracting officer's 
representative training. We have taken the additional step of 
assigning three full-time contracting officer's representatives 
to the staffing pattern in Mexico City, in addition to the 28 
personnel trained in contract management.
    Our business approach toward implementation of assistance 
programs throughout Latin America is to seek the most effective 
and efficient implementer to achieve our program goals. As a 
matter of practice, we choose implementation vehicles after 
conducting analysis of the program type, past performance, 
cost, availability, and the political and security environment 
in which we operate. The implementing mechanisms include 
contracts with companies of all sizes, program agreements with 
interagency partners, grants to nongovernmental organizations 
and educational institutions, and contribution letters to 
multilateral organizations.
    Our approach to management allows the Department to plan 
for effective transitions and build-up and drawdown program 
management and oversight staff as circumstances dictate. 
Procurements to support our programs are made by the embassies' 
contracting officers, the Department's Regional Procurement 
Support Office in Fort Lauderdale and the Department's Office 
of Acquisition, or directly by INL.
    Factors such as the complexity, type of acquisition, scope 
of work, the involvement of other agencies or requirements such 
required sources of supply and whether other agencies have 
existing contract vehicles are considered as factors in the 
analysis of the procurement. Once procured, a variety of 
management controls are essential to monitor and oversee these 
programs.
    All government-procured commodities and construction are 
subject to INL's end-use monitoring and reporting to track 
their use and consistency with agreed foreign assistance use.
    The Department remains committed to building and 
maintaining the necessary capacity to address citizen safety, 
rule of law, and transnational crime in Latin America for two 
compelling reasons: First, to assist our international 
partners; and, second, to diminish the impact transnational 
crime has on America's own citizens.
    Madam Chairman, thank you for the opportunity to illustrate 
some of our counternarcotics assistance programs and our 
contracting vehicles. I will do my best to answer your 
questions.
    Senator McCaskill. Thank you. Mr. Wechsler.

TESTIMONY OF WILLIAM F. WECHSLER,\1\ DEPUTY ASSISTANT SECRETARY 
  FOR COUNTERNARCOTICS AND GLOBAL THREATS, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Wechsler. Thank you very much, Chairman McCaskill, 
Senator Brown, and Senator Pryor. Thank you for the opportunity 
to discuss the Department of Defense's use and oversight of 
counternarcotics contracts in the Western Hemisphere. Before 
describing what I consider to be a significant return on our 
investments over the years in counternarcotics funds, I would 
like to start by addressing some of the specific concerns that 
you raised in your most recent letter and in your opening 
statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wechsler appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    The Counternarcotics and Global Threats Office that I lead 
was established by Congress some decades ago to be the single 
focal point for all of DOD's counternarcotics activities and to 
ensure a focused counternarcotics program with clear priorities 
and measured results. You can be sure that this Administration 
recognizes the importance of the counter-drug mission to our 
national security and the Department's critical role in this 
effort.
    When I came into this office just about a year ago, I 
recognized that we need to do a better job in evaluating our 
programs and using performance data to maximize return on 
dollars that we invest in counternarcotics. This is an 
especially important subject for me. In between the time that 
you mentioned previously where I was in the government, I was a 
management consultant working on these issues in the private 
sector. This has been one of my top priorities since I have 
been on this job.
    To that end, both the Counternarcotics Technology Program 
Office (CNTPO) and Southern Command have taken other positive 
steps to improve contract oversight, and I have initiated an 
internal management review that will be well underway by the 
early summer. I would be happy to discuss these measures in 
greater detail in the question-and-answer session.
    At the Department level, in December 2009, the Defense 
Science Board launched a task force on improving DOD 
acquisition and procurement policies and practices. Just on May 
10 of this year, Under Secretary Carter issued department-wide 
instructions to collect and report on all services contracts as 
required in the authorization bill. The common reporting 
requirement will help provide the greater transparency and will 
help the Department make more informed decisions about whether 
to contract out certain functions.
    We very much welcome the Subcommittee's interest in our 
oversight efforts. You noted that you felt that we perceived 
your oversight as a strain on us. I want to assure you that it 
is not a strain at all on us. It is your appropriate function, 
and we very much welcome it and appreciate it because we are 
driving towards the exact same end.
    We understand our data submission thus far has been 
incomplete. Please rest assured that we will continue to work 
to provide all the information that you requested. I expect 
that we will be able to complete this effort by the end of 
July.
    My staff and I will continue to work with the Subcommittee 
after that point as it continues to analyze the enormous amount 
of information we have already provided and we will be 
continuing to provide. This was, of course, an especially large 
and extensive request going back across touching three 
different Administrations, across almost an entire hemisphere, 
but that is not an excuse. We need to be able to get this 
information better and faster than we have. It shows the 
challenges inherent in overseeing a $1 billion global program 
implemented by numerous services, combatant commands, and 
agencies in the Department of Defense.
    For instance, in compiling the requested information, we 
found inconsistent records management among the various 
contracting entities, that the volume of procurement actions 
overwhelms staff capacity in some instances, that many of the 
acquisition steps are manual processes that are both time-
consuming and error prone. Also, because the Combatant Command 
(COCOMS) define and drive the mission support requirements, but 
the services provide the acquisition vehicles, contract 
performance monitoring has at times often been ambiguous and 
inconsistent, especially as we look back over the years, over 
the decades. I look forward to a continuing dialogue on these 
and other issues.
    Ensuring proper oversight and contract management is 
absolutely essential to achieving our strategic 
counternarcotics objectives. The transnational illicit drug 
trade is a multi-faceted national security concern for the 
United States, which my colleague David Johnson has just talked 
about. It weakens the rule of law. It reduces government's 
ability to address other transnational threats such as 
terrorism, insurgency, organized crime, weapons and human 
trafficking, money laundering, and piracy.
    Many of us here recall the drug trafficking and lawlessness 
of the 1980s that made ``Miami Vice'' a hit television series 
during that time, going through the Caribbean into Florida. The 
counternarcotics mission at that time was not a principal 
mission of the Department of Defense, but the Congress 
recognized that DOD's surveillance capabilities and command and 
control structure was unique suited for the detection and 
monitoring of illicit drug shipments bound for the United 
States. DOD programs primarily implemented by U.S. Southern 
Command and its Joint Interagency Task Force-South (JIATF) have 
made a tremendous impact on the drug flow directly into Florida 
and to the mainland. The problem is different today as a 
result.
    The counternarcotics mission was once slow to be embraced 
by some of our defense policymakers, it is true, but today the 
Department is widely recognized as a critical component of the 
National Drug Control Strategy, and JIATF-South is viewed as 
really the model for regional engagement and interagency 
coordination.
    During the late 1990s, the Department of Defense played a 
vital role in the development and implementation of Plan 
Colombia. The State Department's lead by providing equipment, 
information sharing, and capacity building to the Colombian 
armed forces. These programs, again coordinated very closely 
with the Department of State's leadership, with DEA, and USAID, 
has helped the Government of Colombia increase its presence 
throughout the country, reduce levels of violence, disrupt drug 
production and trafficking, and dismantle drug-trafficking 
organizations. These achievements have contributed to the 
reductions we have seen in cocaine purity and availability in 
the United States.
    In Mexico, our programs are supporting President Calderon's 
continuing campaign to confront rising violence fueled by drug 
trafficking and other organized crime. Our support to Mexico is 
implemented primarily through Northern Command and includes 
training, equipment, and information sharing as well as 
indirect support.
    While outside the scope of the Merida Initiative that you 
mentioned, the foreign assistance funding, our support 
complements Merida and is closely coordinated with our 
interagency partners at post and in Washington.
    As the Department continues to confront extraordinarily 
complex counternarcotics challenges around the world, very much 
particularly in Afghanistan, it is important--it is, in fact, 
critical that we apply all of the lessons that we have learned 
from the efforts in the Western Hemisphere to the work that we 
are doing now in our major war effort abroad.
    Afghanistan presents unique challenges that are different 
from what we have seen in many respects from Colombia and 
elsewhere, but there are many lessons, including the 
appropriate use and oversight of contractors, that must be 
taken into consideration.
    Again, I thank you for the opportunity to speak today, and 
I look forward to your questions.
    Senator McCaskill. Thank you, Mr. Wechsler.
    What we are going to do, if we would go ahead and let us 
just do 7-minute rounds, if we could put the clock to 7 
minutes, that would be great, because I want to make sure that 
everybody gets a chance to offer questions, and we can do as 
many rounds as people would like.
    Let me just start with a few basics. Do you know, Mr. 
Johnson, how much the State Department spent on 
counternarcotics contracts last year?
    Mr. Johnson. The data that I have gathered in front of me 
is for the period from 2000 to 2009, but we cannot disaggregate 
it by year.
    Senator McCaskill. Well, do you have a figure for what you 
have spent over the last 10 years?
    Mr. Johnson. By the principal countries in question, yes. 
Bolivia, $770 million; Colombia, $4.2 billion; Peru, $900 
million; Ecuador, $191 million; Guatemala, $23 million; Mexico, 
$727 million; Dominican Republic, $6.9 million; Haiti, $10.7 
million. Those are appropriated funds amounts.
    Senator McCaskill. OK. And how much of that has been spent 
on contracts?
    Mr. Johnson. In the case of Colombia, $3.89 billion; 
Bolivia, $726 million; Peru, $831 million.
    Senator McCaskill. OK. Let me stop you here. Is there a 
reason that you have this information today and that you could 
not produce it for the Subcommittee so we could prepare for the 
hearing?
    Mr. Johnson. In the course of the work that we have done 
with your staff, we initially reached out for documents that we 
could provide, supporting documentation for--that was name 
retrievable, and we have built up since then additional 
numerals, and we are seeking the supporting document for that 
as well.
    Senator McCaskill. OK. So you have the numbers that you are 
confident are correct for how much the State Department has 
spent on counternarcotics contracts for an aggregate over 10 
years, and you could easily extrapolate an annual number out of 
each one of those?
    Mr. Johnson. I would not extrapolate it, but I would 
disaggregate it down to that.
    Senator McCaskill. OK, sorry. Wrong term. And I am 
wondering why you did not talk about that in your opening 
statement instead of--I mean, we got to page 11 of your opening 
statement before you mentioned the word ``contract.''
    Mr. Johnson. I sought to put in some context the policy 
objectives that we are pursuing.
    Senator McCaskill. Well, let me remind you, we are here on 
contracting oversight.
    Mr. Johnson. I understand.
    Senator McCaskill. We are not here to argue about whether 
or not it is a good thing or a bad thing, although I am trying 
to figure out why it is so--why we have two, and how much--I 
mean, that is not the job of this Subcommittee. This 
Subcommittee is about contracting oversight.
    Now, do you know how many contractors you now have 
currently working in Colombia? Do you know what the size of 
your contracting----
    Mr. Johnson. It is 598.
    Senator McCaskill. Do you know the total number of 
contractors you have working for State in counternarcotics?
    Mr. Johnson. I could get that figure for you by country, 
but I do not have it at my fingertips right now. I happen to 
know the Colombia figure because it is our most mature program, 
it is the one we worked hardest on to reformulate and to 
nationalize with our Colombian partners, and part of that 
nationalization is reducing the contractor footprint on the 
ground and turning over as much as possible, as much as 
appropriate, to the Colombians in a coordinated fashion.
    Senator McCaskill. OK. And since now for the first time we 
are getting real numbers from you as to an annual contracting 
amount and how many contractors, do you have any contractor 
evaluations that you can share with us today?
    Mr. Johnson. I do not have any at my fingertips here, but 
we are gathering that data for you.
    Senator McCaskill. And why is it so hard to gather it?
    Mr. Johnson. Well, as you pointed out in your opening 
statement, this requires time, and we have put in time to 
gather the documents and to clear the documents that we 
provided you at the end of last week, some several thousand 
pages that backed up the initial dollar amount, which was a 
relatively small percentage of this, I recognize that. But we 
were striving to provide you data that we could back up with 
paper, and we are moving to the second phase of that, bringing 
in, as you recognized in the letter that you sent me, the 
global programs, particularly those that are administered by 
our air wing at Patrick Air Force Base. And we will endeavor to 
gather in all of the information that is in many different 
places at our embassies abroad as well as here in order to back 
up the efforts that we have underway. We feel like we have done 
a good job. We know we could do a better job, and we look 
forward to your helping us do that.
    Senator McCaskill. Well, the bottom line is that it does 
not appear--are you confident that you have evaluations on all 
these contractors and that there are audits that have been done 
on any of the contractors?
    Mr. Johnson. I am confident that we have evaluations. I am 
not going to tell you that we have audits because I do not know 
that off the top of my head. I would be speculative there, and 
I do not want to do that.
    Senator McCaskill. Who is the person that is at the top of 
the food chain on contracts that you all are doing? Or is the 
problem that you--is each individual embassy entitled to 
contract and there is nobody that is looking at all these 
contracts to see if we are getting the performance out of these 
contractors that we would hope with this kind of expenditure of 
Federal funds?
    Mr. Johnson. Well, the buck stops with me, but we do 
authorize our embassies to engage in contracting for varying 
amounts, and we have other officials that are responsible for 
the implementation of the contracts that are in locations 
outside of Washington that manage their contracts not on a 
state-by-state basis but in a global or regional support 
context. And so gathering the data, as you have requested it, 
is a process that takes some time.
    Senator McCaskill. Well, it does not--I guess the thing 
that is worrisome to me is a request for contractor name, 
contract number, extent of competition, scope of work, which 
should be a pretty easy document to get because every contract 
should have a scope of work.
    Mr. Johnson. They do.
    Senator McCaskill. It is not a contract if you do not have 
a scope of work. The contract ceiling and the dollar amount 
obligated. We have six spread sheets--no, excuse me. We have 
one spread sheet with a tab for each of the last 10 fiscal 
years. We did not get the right number, and we were not even 
told that it was an incomplete number when it was given to us. 
We had to point out to you that it was an incomplete number 
based on other research we had done. In fact, the number we 
got, somebody on my staff could have gotten in an hour in a 
Google data search. Any member of the public could have gotten 
it.
    So, I guess what I am most concerned about is that no one 
appears to be worried about value as it relates to these 
contractors. It appears that these have been siloed and no one 
has taken responsibility to say, hey, how are the contractors 
doing? Should we be renewing these contracts? You do not have 
that many. How many contractors do you have, by and large, that 
are doing the bulk of the work? Isn't it like four or five?
    Mr. Johnson. The bulk of the work is done by, yes, four or 
five.
    Senator McCaskill. OK. So, if you would have come to us and 
said, hey, here is the bulk of the work done by four or five 
contractors, it is going to take more time and may not be as 
efficient as we would want it to be to get you every single 
small contract for some kind of logistic support or whatever, 
but for the five big ones, should it be this hard to get this 
information?
    Mr. Johnson. While there are five big contractors, as you 
pointed out, there are individual statements of work and task 
orders that execute the individual efforts that we have in 
different countries at different times. So it is not a matter 
of going to one single contractor and gathering all the data 
for every single task order and every single statement of work.
    Senator McCaskill. OK. Well, my time is up, but I have more 
questions, and I just think, with all due respect, for you to 
come and give an opening statement that is all about the policy 
of counternarcotics strategy and even mentions Haiti--which has 
nothing to do with what we are talking about today. We are 
talking about contracting and whether or not somebody is 
minding the store on contracting. And we are going to continue 
to bore down until we get the answers on contracting, because I 
have an uneasy feeling that if we get all the information, 
there is going to be a lot more work that needs to be done on 
contracting oversight at the State Department. And, Mr. 
Wechsler, I have questions for you on the next round.
    Senator Brown.
    Senator Brown. Thank you, Madam Chairman.
    It is interesting, Madam Chairman, when I first heard that 
I was going to be on this Subcommittee, I said, ``Oh, gosh, 
contracting. That is pretty boring.'' But with all due respect, 
it is getting more and more interesting because of the things 
that we have been learning about the money that is being spent 
and how it is being spent and why it is being spent and how 
much money is owed or we owe various contracting entities. So I 
am actually very excited to be on this Subcommittee.
    I am wondering, Mr. Johnson, are there any overpayments of 
contracts that are outstanding with any of the four or five 
major groups? Do we owe them any monies or do they owe us any 
monies from any overpayments or anything like that?
    Mr. Johnson. Well, I know that outside of this region there 
are overpayments that we have in the provisional payment 
program that we have in Afghanistan, for example. I am unaware 
of any overpayments that we have calculated that are currently 
outstanding. I am certain that there are bills that are pending 
that we are----
    Senator Brown. In the ordinary course?
    Mr. Johnson. Yes.
    Senator Brown. And how about any breaches of contracts from 
any of these four or five entities? Are they performing all the 
terms of their contracts, to the best of your knowledge?
    Mr. Johnson. To the best of my knowledge, yes.
    Senator Brown. And are there any outstanding terms that you 
are aware of, any performance issues that we need to be 
concerned about with these contracts?
    Mr. Johnson. There is constant oversight of these 
contracts, and there is constant work with the contractors to 
address issues on a daily basis. So I am sure that there are 
some things that are being done every day, but----
    Senator Brown. Nothing major that would warrant us learning 
more about it?
    Mr. Johnson. I am sure that some of these would be of 
interest, but they are at the individual embassy level.
    Senator Brown. OK. One of my concerns is I just want to 
make sure we are spending our money properly, that it is 
properly accounted for, etc. And I know in our April 15 hearing 
on the Afghan National Police, that contract administered by 
the State Department which you just referenced a little bit, we 
inquired into the lack of oversight made possible by the 
inadequate number of In-country Contracting Officer 
Representatives the (ICOR) who are responsible for monitoring 
and inspecting the contractors' performance on the ground. Can 
you reassure this Subcommittee that the problems in contract 
administration are not occurring in other regions like Latin 
America and in the Caribbean?
    Mr. Johnson. The contracting work that we are doing in 
Latin America is much more mature, and it operates in a much 
more benign environment than we have had in Iraq and 
Afghanistan. So we have been able to build in contracting 
oversight as we built up these programs. We have a number of 
our people who are trained that are administering the 
contracting contract oversight as well as quality assurance 
managers that are individually assigned to the major countries, 
for example, six in Colombia, three in Bolivia. We have two 
Contracting Officer Representatives (COR) in Mexico and one 
contracting officer in order to provide direct oversight there.
    Senator Brown. And are you able to delineate for the 
Subcommittee the number of ICORs or personnel on the ground in-
country responsible for contract surveillance, for example, in 
Colombia and in Mexico?
    Mr. Johnson. Yes. The individual--the numerals that I just 
cited for you, that is their responsibility.
    Senator Brown. OK, great. The Administration's fiscal year 
2011 budget request includes $36 billion less for contractors, 
which, as you noted, is a 5-percent decline for the current 
year. Based on this reduction, is the Department of State and 
DOD realigning the strategies or are you going to be able to 
fit within that framework?
    Mr. Johnson. In certain of the programs for which I am 
responsible, for example, Colombia, which has had a large 
dollar amount dedicated to contracting over time, the 
appropriation itself is declining as Colombia has engaged in a 
nationalization program with us. So within that, we are able to 
reduce.
    Likewise, in Mexico, the appropriations which have been 
provided over the last three appropriation cycles have been 
dedicated in significant measure to large acquisitions for 
aircraft, data processing equipment, things of that nature; 
whereas, as we look into the out-years, we are looking more at 
capacity-building efforts which will not require the same sums 
of money and in significant measure will be implemented through 
interagency agreements by our partners who are providing direct 
training.
    Senator Brown. Great. And this is obviously for you, Mr. 
Wechsler, this next question. What is the status of the 
transition of the U.S. support programs to the Colombian 
Government? And, in turn, I would like maybe both of you to 
comment, and then I will turn it over to the next Senator to 
speak. And what lessons learned have we learned, what lessons 
learned have we gained through our experience in Colombia and 
with transitioning a U.S. function to the host country that may 
be applied to our new situation in Afghanistan?
    Mr. Wechsler. Thank you very much. It is an exceedingly 
important question. There are a great number of functions that 
are being transferred, that have been transferred to the 
Government of Colombia and are being transferred to the 
Government of Colombia and still some capacity that the 
Government of Colombia needs to build in and of itself. But the 
fascinating thing for me compared to the last time I was in 
government at the end of the Clinton Administration when Plan 
Colombia was beginning--this statistic will always stick in my 
mind--is that two-thirds of the Colombian people at the time 
thought that the Revolutionary Armed Forces of Columbia (FARC) 
was going to take Bogota. Now the FARC is a shadow of what it 
was. The effort is not over. But the end result is that 
Colombia is now an exporter of security and helps us regionally 
and even outside the region to export security based on the 
capacities that they have built in part with our assistance and 
that we have transferred to them.
    Amongst the lessons that are critical to learn from a 
policy perspective is that this takes a long period of time. We 
cannot think in terms of years. We cannot think in terms of 
certainly news cycles. But we have to think in terms of a 
decade, quite often, to have this kind of impact for the full 
range of transition of the services from building them in the 
beginning to them being an exporter of security, which means we 
need steady, consistent efforts in these areas.
    Another thing that I would suggest where we have had the 
most success is where we have a whole-of-government effort on 
our side, and Colombia is probably one of our better examples 
of that whole-of-government approach to these issues.
    And then I think that there are also, again, back to the 
purpose of this Subcommittee especially--and, again, I am more 
than happy, in fact, very eager to talk about matters of 
policy, but I know that this Subcommittee is talking about 
contracting. I do believe that there are lessons to be learned 
from contracting during this whole effort from this era as we 
look back. And, again, as we have begun looking back even 
before this Subcommittee hearing, but especially in conjunction 
with the task required for this Subcommittee and our work that 
I look forward to doing and continuing with this Subcommittee, 
there are lessons to be learned, lessons to be drawn about the 
requirement for very clear and concise requirements give by the 
COCOMs and oversight by the services, by the contracting 
offices, providing the necessary oversight that is required. In 
some cases, this worked well. In some cases, this did not seem 
to work as well as it should. And what we want to do is make 
sure that we have those lessons and we apply them to 
Afghanistan where we are doing the reviews of these programs as 
well there, and we find also some things are working very well, 
some things are not, and we want to make sure that the things 
that are not working well are working better. And I am happy to 
talk to you about some of the things that we have done in that 
area as well.
    I hope I have answered your question.
    [Pause.]
    Senator Brown. Thank you, Madam Chairman.
    Senator McCaskill. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Mr. Johnson, I am going to put you back in the hot seat 
here for just a minute. Could you give the Subcommittee just a 
very brief, 30-second overview of what we are talking about in 
the contracting world? What do you contract for? And who do you 
contract with?
    Mr. Johnson. We contract significantly for civilian police 
services, a global contract, which is a delivery indefinite, 
quantity contract.
    Senator Pryor. Is that a private security firm you are 
talking about?
    Mr. Johnson. There are three current qualified bidders 
under this for task orders under this contract: Civilian Police 
International, a division of L3; Pacific Architects and 
Engineers, which was acquired, I believe, about a year ago by 
Lockheed Martin, was formerly an independent company; and 
DynCorp International. We have other contracting relationships 
as well. That is by far the largest dollar amount because, in 
addition to that, DynCorp is a successful bidder on our global 
aviation contract.
    Senator Pryor. OK. You mentioned before that there are 
maybe four or five companies that do the bulk of the work. Are 
these competitive bids?
    Mr. Johnson. The Civilian Police contract that I mentioned 
is a competitive bid. That contract has been extended several 
times, but there is an request for proposal (RFP) on the street 
right now. Bids are due June 1. It is my hope and it has been 
my ambition since I took this job to broaden the pool of 
contractors that we could work with. I think that three is too 
few, if you will, and would like to enhance our ability to 
compete them against one another.
    Senator Pryor. You mentioned three companies. What are the 
other one or two or three that also do the bulk of the work?
    Mr. Johnson. A small amount of the work but an important 
amount is done by an Alaska Native company that provides some 
individual services for us, and Lockheed Martin has provided 
some services as well.
    In addition, one of the more successful efforts we have had 
during the period of time we are talking about is currently 
using the contracting capability of the Department of the Army 
and reaching to its eight contractors, I think, that it can 
work with on our behalf for some acquisition of goods.
    Senator Pryor. And, Mr. Wechsler, is it true with the 
contracting you do that you usually work with four or five or 
six contractors?
    Mr. Wechsler. Yes. We work with a great number, but there 
is a group that receives the majority of the resources.
    Senator Pryor. Is it the same group that the State 
Department uses?
    Mr. Wechsler. Well, for instance, in South and Central 
America, looking back at this period over the last decade, 
according to the data that we have collected thus far--and I 
always want to stress that because, as I said in my opening 
statement, we are continuing to work on this. We have collected 
an awful lot of the data, but there is more for us to collect. 
But according to the data that we have collected thus far, the 
top ones are DynCorp, Lockheed Martin, Northrop Grumman, ITT, 
and King Aerospace.
    Senator Pryor. OK. We have seen problems in Latin America 
with corruption in government--in fact, we are, unfortunately, 
starting to see corruption even in our government with border 
security personnel because of the Mexican drug cartels, which 
is very disturbing. But how do you know that these contractors 
are not corrupted? Mr. Johnson.
    Mr. Johnson. The way that we have worked with them in order 
to guard against that is to have an active conversation with 
them about their own internal control procedures, and as we 
discover challenges to that, to bring them to their attention 
and to seek improvements. All three of the ones that we are 
working with currently are public companies so that they are 
required to have the accounting procedures under Sarbanes-
Oxley, which is a safeguard that we think is important. And it 
is a constant effort to work with them on this issue.
    I think that the use of contractors that are this size 
gives us some internal controls that are important, but this is 
not something that you fire and forget, if you will. I work 
actively and have an ongoing conversation with senior 
management with these companies whenever any problem is drawn 
to my attention.
    Senator Pryor. Let me just say this on behalf of the 
Subcommittee. I do not want to speak for any individual, but I 
think there is an institutional concern here, and that is, 
Senator McCaskill talked about how you have not been 
forthcoming with a lot of documentation, and apparently the 
Chairman has been determined to try to get as much information 
from you as possible, and that has not really been forthcoming. 
And what that does, at least in my mind, is it raises a 
question about how on top of this you really are.
    You talk about how you have these procedures in place and 
this, that, and the other, but if you cannot provide us with 
the documentation and the numbers and the details of some of 
the contracts and some of the requests that the Subcommittee 
has made, it raises a question, in my mind, about how much you 
really are overseeing these contracts. So that is another 
reason why I hope you will get us the documentation very 
quickly.
    I also want to follow up on Senator Brown's question about 
whether these companies are fulfilling their contracts. Your 
testimony a few moments ago was that they are fulfilling the 
terms of the contract, they are not breaching the contracts?
    Mr. Johnson. I do not have any evidence that they are 
breaching the terms of the contract, but we work with them 
constantly to make sure that they are fulfilling the 
requirements of the individual task orders under these 
contracts. I think that is where my attention goes.
    Senator Pryor. I know that one of the things that Senator 
McCain has spent a lot of his time on since he has been in the 
Senate is contracting and making sure that the terms of the 
contracts are fulfilled. In his work on the Armed Services 
Committee and through other places we have learned that there 
are many examples of government contracts where the low bidder 
wins, but then once you get into the contract, they either 
cannot comply with all the terms or they seek more money or a 
longer amount of time to do the work that they originally 
bargained for.
    Do you find that is occurring in these contracts as well?
    Mr. Johnson. I know of instances where under individual 
task orders we have not been, shall we say, completely 
satisfied that the company has provided the individuals that we 
needed to perform in a training mission, but that is something 
that we address with them as aggressively as we possibly can.
    Senator Pryor. And I know that one of the things--again, 
not to take Senator McCain's thunder because he has been a 
leader on this for a long time, but just the overall cost 
overruns of contracts are a great concern to us, where you may 
get into some sort of military procurement of a weapons system 
or whatever it may be, and you think you are going to spend X, 
and by the end of the contract, you are really spending maybe 
double or triple that.
    Do you see those large cost overruns in these contracts?
    Mr. Johnson. I think that we face, if you will, a slightly 
different kind of problem because we do not tend to be buying 
equipment which is in the new design phase, right at the 
cutting edge, where there is more of an opportunity and a 
challenge on that.
    Where we do have a problem is having allocated funds for a 
particular service, does it really achieve the objective we are 
trying to achieve? And that is where I think we can be properly 
attentive to knowing whether the way the program is designed, 
the people that have been brought on board are actually doing 
what we need to have done.
    Senator Pryor. Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Pryor. Senator 
McCain, welcome. We are glad to see you here.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Madam Chairman, and thank you 
for holding this hearing and for your continued zealous work on 
behalf of the taxpayers of this country. I am very grateful.
    Mr. Wechsler, I was struck by a comment that you made in 
your written statement. I think it really authenticates the 
reasoning for this hearing. You said in your written statement, 
``In compiling the information requested by the Subcommittee 
for this hearing, my office found inconsistent records 
management among the various contracting entities, found that 
the volume of procurement actions overwhelms staff capacity in 
some instances, and found that many of the acquisition steps 
are manual processes that are both time-consuming and error 
prone.''
    What would have happened if we had not called for this 
hearing? Would those practices have simply continued?
    Mr. Wechsler. The answer is no, Senator. This hearing, as I 
said in my opening oral statement, is quite timely and quite 
helpful because it dovetails completely with efforts that I 
have made since I came into office over the last year. These 
things that we have discovered in the course of this review 
have mirrored things that we have discovered in the course of 
our own reviews that have been going on, again, since I took 
office.
    We have discovered a number of areas in which processes can 
be improved, a number of times where things have worked exactly 
the way you want them to work, but there have been far too many 
times when information that I want I have not been able to 
receive as rapidly as I need to receive it; when I look into 
the contracts, I do not get the clarity that I need to see or I 
do not get the After Action Report that I need to see; and I do 
not want to be one of these appointees that only looks at 
things from their moment on, but I want to look at what 
happened before me so that I can get the lessons that are 
learned for what we are doing now.
    I will give just one example, sir, one that I know is very 
dear to your heart. My first trip abroad when I took this job 
was to Afghanistan, of course. One of the things that we do 
there is a significant amount of work with the Drug Enforcement 
Administration to train up the Afghans, special vetted units of 
the Afghan counternarcotics police in order to work alongside 
the U.S. military in the campaigns that we are doing today. And 
those programs, by the way, do involve a number of U.S. 
Government personnel, but also involve some contracting 
personnel, and those programs are working quite well, by and 
large. However, when I turn to the contracts and the efforts 
that were done to train the wider counternarcotics police, 
these were not nearly as effective.
    And I would say, Senator Pryor, with your question earlier, 
when you were asking about do contractors execute what is asked 
of them, I think that is an excellent question. Of course, 
there are lot of laws and processes that are designed to get 
that, but that is not the only question about did they check 
the boxes and do everything. Are they effective at the end of 
the day? And the efforts to train the counternarcotics police, 
the wider counternarcotics police, were not nearly as 
effective.
    One of the things that I discover when I was there was that 
Combined Security Transition Command-Afghanistan (CSTC-A) did 
not have an individual development cell designed for the 
counternarcotics police, which is a different effort, of 
course, than the wider police.
    I talked with the leadership there. Now they have a cell. 
We relooked at the program, including the contracting program, 
changed some elements of it. I was just out there a few weeks 
ago, and I was impressed at the path that they are on.
    So that is the kind of approach that I am taking both in 
conjunction with the efforts driven by this Subcommittee, but 
also outside of that, preceding that, and continuing after 
this.
    Senator McCain. All right. Well, let me just say that in 
your written statement, Contract Oversight Issues/Way Forward, 
you highlighted many of the problems that you have found, but 
there is very little, frankly, in your written statement as to 
what actions you have taken to cure these problems. Could you 
submit for the record the steps that you have taken to cure 
these problems, because I think you have correctly identified 
them, but I do not see specific steps that are being taken. 
Perhaps I missed them. But maybe you could provide them in a 
succinct fashion for the benefit of the Subcommittee.
    Mr. Wechsler, in your written testimony, you made an 
interesting statement that many people may not fully comprehend 
or may not be as aware of as they should be, ``Terrorists 
associated with Islamic Radical Groups (IRGs) . . . as well as 
narcoterrorist groups such as the Revolutionary Armed Forces of 
Colombia (FARC), operate sophisticated networks designed to 
move not only weapons, drugs, and other materials, but people 
as well. A wealth of intelligence reporting has linked many IRG 
members to both drug trafficking and alien smuggling. . . . 
Such trafficking, in which terrorists with transnational reach 
commonly engage, is a present and growing danger to the 
security of the United States, our forces abroad, and our 
allies.''
    That is a very strong statement, Mr. Wechsler. Do you 
believe that the IRG or FARC are working with the Mexican drug 
cartels or foreign governments such as Venezuela?
    Mr. Wechsler. It is an excellent question. The first thing 
that I would state is that there is far too much for my level 
of comfort that we do not know about all these questions.
    The second thing I would say is that what we----
    Senator McCain. Mr. Wechsler, I do not have a lot of time. 
I would like a direct answer. Do you believe that IRG or FARC 
are working with the Mexican drug cartels or foreign 
governments such as Venezuela?
    Mr. Wechsler. Just yesterday, I believe, in Spain, there 
was a judge that produced information that was quite 
fascinating about Venezuela's role----
    Senator McCain. With ETA, yes.
    Mr. Wechsler. Exactly. The connections between these 
entities are often quite larger than we appreciate.
    Senator McCain. Mr. Wechsler, for the third time, I am 
going to ask you, do you believe--I would like a yes or no 
answer and then you may elaborate, OK?
    Mr. Wechsler. The answer is no to your entire question 
because you said Mexico. I do not see the connection between 
the IRGs and Mexico.
    Senator McCain. I said Mexican drug cartels or foreign 
governments.
    Mr. Wechsler. Or foreign governments, yes. Venezuela, as I 
just referenced--it was the Mexican one that I do not have the 
evidence in front of me at present.
    Senator McCain. And that means that Islamic radical groups 
could be coming across our southern border if the drug cartels 
and human smugglers are working with them?
    Mr. Wechsler. Again, there is a lot that we do not know 
about these problems, but you are absolutely right to be asking 
these questions because there is an awful lot that we do not 
know about these issues. I have not seen, again, the 
connections between the Islamic terrorists and the IRGC and the 
Mexican drug cartels. That is the area that I have not seen 
evidence for. But it does not mean that it does not exist. It 
means that we need to investigate it.
    Senator McCain. And if you say that it is a ``present and 
growing danger to the security of the United States''--I am 
quoting from your statement--does that influence your opinion 
as to whether the National Guard should be deployed to secure 
the border?
    Mr. Wechsler. What we do on the border--it does influence 
my opinion. It does influence my opinion about what needs to be 
done on the border. Whether the National Guard is the right 
tool to be used is a question that comes from--that is a 
separate question. But it does indeed influence the decision 
about how we need to approach our border, indeed.
    Senator McCain. Mr. Wechsler, I have been around here a 
long time, and I would like straight answers. In other words, 
do you believe that we need the National Guard on the border or 
not in light of a present and growing danger?
    Mr. Wechsler. I personally think that the National Guard is 
not the right tool for a lot of reasons on the border. I think 
that there are elements of the National Guard that play an 
especially important role in what we do on the border that my 
office funds. My office funds an awful lot of the deployments 
of the National Guard to the border. Those elements of the 
border, of what we do on the border, I support wholeheartedly. 
There are other proposals for what the National Guard might do 
on the border that I think would be not the appropriate use of 
the National Guard on the border.
    Senator McCain. If I may interpret your answer, some 
elements of the National Guard on the border would be helpful.
    Mr. Wechsler. We already do that. Yes, sir. I pay for it 
out of my budget. There are deployments that we go down to do 
that on a regular basis, and those are quite valuable, indeed.
    Senator McCain. Thank you. Do you believe that the UAVs 
have been beneficial and perhaps more use of them would help in 
our effectiveness?
    Mr. Wechsler. I think we cannot get enough UAVs around the 
world, indeed.
    Senator McCain. Do you think that the Mexican Government in 
its struggle with the drug cartels--and I realize this one is a 
tough question--is winning or losing that struggle?
    Mr. Wechsler. It is a tough question. I believe that it 
is--and, again, I know you more than others appreciate how 
challenging that question is. And I do not mean to be evasive 
on this.
    Senator McCain. I understand this is a tough question.
    Mr. Wechsler. But I do want to say that when I look at 
whether you are winning or losing, the first question that I 
ask is: Do they have the right policy and approach? The next 
questions is: Do they have the right structure? Do they have 
the right people? Do they have the right resources? But the 
first question is: Do they have the right policy and approach? 
And President Calderon has the right policy and approach. He 
has brought the fight to the drug-trafficking organizations in 
a way that we have not seen before in Mexico. And he has 
brought some tools to this fight in a way that we have never 
seen before in Mexico.
    Senator McCain. And we have increased the Plan Merida and 
all of those things.
    Mr. Wechsler. Right.
    Senator McCain. What do you think the outcome has been so 
far?
    Mr. Wechsler. So far we have not seen an outcome yet. We 
have seen some tactical evidence of success from time to time, 
but it is not the case that they have solved this problem or 
are even in a place where we see it in the immediate horizon. I 
compare this much more closely to the earlier stages of Plan 
Colombia, and I think that--and perhaps this is where you are 
going with this, and I had mentioned this a little bit in my 
opening statement. One of the challenges for the United States 
more generally is that we have very short time horizons for 
problem sets that have very long time horizons. This is a 
problem set that has a long time horizon and requires as much 
longer time horizon that, in fact, I think we have given it 
previously. And it requires consistent--and only at the end of 
that long horizon are we going to be able to say that we have 
won.
    Senator McCain. I am way over time and I apologize, Madam 
Chairman, but let me just say that if you gauge success or lack 
of success in the number of Mexican citizens killed in this 
struggle with the drug cartels, you can certainly reach the 
conclusion that they are not winning. Would you agree with 
that?
    Mr. Wechsler. By that judgment, there is absolutely no 
question. You are correct, sir.
    Senator McCain. I thank you. Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator McCain.
    Mr. Wechsler, in the 10-year period, you say, between 1999 
and 2009, the Defense Department spent $5.3 billion in 
counternarcotics programs, and then, I am quoting, ``. . . it 
is estimated that 18 percent . . . was expended towards 
contractor support.'' I am concerned that you have to estimate 
that figure.
    Mr. Wechsler. Yes.
    Senator McCaskill. And I am even more concerned that you 
had to hire a contractor to help you estimate that figure.
    Mr. Wechsler. Yes.
    Senator McCaskill. So, first, I want to point out that we 
do not know for sure because you are estimating. That needs to 
go to the top of the list problem. And walk me through the 
decisionmaking process. You get a notice from this Subcommittee 
that we are going to look into contracting in counternarcotics 
work in this hemisphere, and walk me through the process where 
somebody says, ``Hire a contractor to do it.'' Is this common? 
Does the Defense Department hire contractors to prepare them 
for hearings all the time?
    I think you understand the line of questioning. The reason 
this hearing is important is because, as you candidly admitted 
in your testimony, as Senator McCain pointed out--and I admire 
you for your candor--in fact, this hearing helped you realize 
that you have a problem.
    Now, if in fact, people at the Pentagon are hiring 
contractors to take care of hearings, how do we ever get 
through to that maze of a bureaucracy that they have a 
management problem? Should we pass something in the defense 
authorization this year that says you cannot hire contractors 
to help you prepare for oversight hearings?
    Mr. Wechsler. Thank you. Thank you very much. Let me get to 
all your questions because your questions are, of course, 
critically important to us.
    It is an estimate, first and foremost, and the reason why 
it is an estimate--and I want to be clear about what we have 
done for you and what we have not done for you yet--is we have 
not received all of the information. There are some elements--
again, we are going back 10 years, 15 acquisition and 
contracting components, Outside the Continental United States 
(OCONUS), COCOMs, services, defense agencies, National Guard 
Bureaus, all their contracting offices, we have done over 2,000 
independent actions thus far going across, again, three 
Administrations. This is in no way to excuse this situation. 
This is merely an explanation of the scope and what we are 
doing.
    As you know, we went back immediately, when we got your 
letter, to seek some clarity about narrowing or focusing or 
trying to understand how we could best help it. You said you 
wanted the entire thing. We said, great, we will do it. We then 
went through the process and tried to figure out how we could 
best go forward and provide this information to you. And, 
frankly, this gets to your next question. And just from a 
personal perspective, the last time I was in the Department of 
Defense was in 1995 when I served directly for General 
Shalikashvili. When I came back into the Department of Defense, 
there were a lot of things that were different, and a lot of 
things for the better. But, frankly, one of the things that 
struck me immediately was the increased reliance on contractors 
compared to what I had seen personally from my previous 
experience, including in my own office as it was presented to 
me.
    One thing that was presented to me, just for example, was 
that the person who was responsible for legislative affairs in 
my office was a contractor. This I thought was entirely 
inappropriate. That person is no longer with my office. But it 
is important to understand where we have been and where we are 
going.
    When I arrived over a year ago--and I want to get 
immediately to your question, but this is----
    Senator McCaskill. Do it quickly.
    Mr. Wechsler. We recognized the need for a more permanent 
workforce. What had happened under previous leadership, under 
the last Administration, and, frankly, under the first half to 
6 years of the last Administration, whenever a vacancy had 
occurred in my office that does oversight over contracts and 
budgets, the billet was almost always taken and reallocated to 
other organizations. It was backfilled by detailees and some 
contractors. This is not an appropriate way to be overseeing 
these kinds of efforts, and my office has shrunk as a result.
    As I said before, we are conducting an oversight review. I 
have already gotten approval from Under Secretary Flournoy, who 
shares completely my concerns about this area, about a new 
process to, as rapidly as possible, build out my office, 
focusing it first and foremost on my budget program and 
evaluation area, where the evaluation side of this, as I look 
back in history, was not done nearly as effectively as I would 
like, and to build out that staff.
    Quite frankly, we are not there yet. I saw when Secretary 
Gates publicly complained that it took so many four-star 
reviews before he could send a small team out to somebody. I am 
on the other side of that, and it takes an awful lot through 
the Pentagon bureaucracy for me to build out the staff that I 
need.
    But we are pushing as rapidly as possible in doing that and 
to build up the staff, and I have a new legislative affairs 
person, and we are working quickly to convert people from 
contractors to permanent government staff in that regard.
    But when we started this in February, we simply did not 
have the staff.
    Senator McCaskill. OK.
    Mr. Wechsler. And so that is why we went the direction that 
we did.
    Senator McCaskill. Answer this question, if you can. 
Believe me, we now know you have been there--you were there in 
1995--you have to try to not talk quite so long because I have 
got a lot of questions. You are going to be here a long time if 
you keep talking so long.
    Mr. Wechsler. Sure, OK.
    Senator McCaskill. It is just going to prolong the pain, 
because I am not going anywhere until I get all these questions 
answered.
    Mr. Wechsler. Senator, I am here as long as you want me to 
be.
    Senator McCaskill. We do not need to hear again that you 
were there in 1995 and you are back and things have changed. 
You can just try to hone in. Let me hone in on the question 
here.
    Is it common--and I have a feeling you are the kind of guy 
that knows this, and I am asking you for your impression. Is it 
common for people in the Pentagon to hire contractors to help 
them prepare for oversight hearings? Is that common?
    Mr. Wechsler. I have never hired a contractor to prepare 
for oversight hearings before.
    Senator McCaskill. Are you aware of others that are hiring 
contractors to----
    Mr. Wechsler. I am not aware myself of anybody doing it, 
but probably legislative affairs would be helpful for you.
    Senator McCaskill. Thank you. I am going to try to do one 
more question before I turn it over to Senator Brown.
    Let me ask you about the Alaska Native Corporation (ANC). 
As you may or may not know, I am focused on ANCs and the 
ridiculous stature they have in contracting in the Federal 
Government, the notion they can be as big as they want, they do 
not have to compete, and they can front is offensive to me. I 
know that an ANC received over $16 million in contracts from 
the State Department 2005 to 2008. Olgoonik, an ANC. Let me ask 
you first--and I think I know the answer to it. I am willing to 
bet these contracts were not competed.
    Mr. Johnson. That is correct.
    Senator McCaskill. OK. And why would it be necessary to not 
compete these contracts? Were they not competed because you do 
not have to because they are ANCs or because there was a 
legitimate reason for them not to be competed?
    Mr. Johnson. We were looking rapidly for the service to be 
provided, and we consulted with our acquisitions personnel, and 
they advised us that this would be an appropriate way to pursue 
rapidly to acquire these services.
    Senator McCaskill. And this is the ironic part about this. 
Last month, the State Department officials told the 
Subcommittee staff that the Department paid Olgoonik, the 
Alaska Native corporation, to provide local Colombian employees 
to various Colombian ministries. So we are hiring an Alaska 
Native corporation to go to Colombia to identify Colombian 
employees for the Colombian Government to hire, and for that 
reason we do not need to compete a contract?
    Mr. Johnson. We were looking for something that we could 
rapidly deploy, and this was----
    Senator McCaskill. What would happen if ANCs did not have 
this vaunted status of not ever having to compete for a 
contract?
    Could you have legitimized this as a sole-source were it 
not for the fact that an ANC got the contract?
    Mr. Johnson. I do not know.
    Senator McCaskill. I would like to know the answer to that 
question.
    Mr. Johnson. I will give you an answer to that. I do not 
want to speculate.
    Senator McCaskill. Because I am determined to ferret out 
every opportunity I can to point out that ANCs are getting non-
compete contracts across the Federal Government for no good 
reason, and the vast majority of those or the vast majority of 
people doing the work have nothing to do with the Alaska Native 
corporation. And so I would appreciate a followup on that.
    Senator Brown.
    Senator Brown. Thank you, Madam Chairman.
    When you say rapidly deploy, what is the time frame we are 
talking about?
    Mr. Johnson. Senator, I would need to get you that data, 
but in order to carry out a full, fair, and open competition, 
it is a multi-month process, and we were looking to, I am told, 
address an issue where we were unable appropriately and rapidly 
to bring these services on board locally, and this was a 
vehicle through which we could do it.
    Senator Brown. Right, because I am sharing the Chairman's 
concern, the failure to compete, and everything is always in a 
rush around here. We have got to rush, rush, rush. Everyone is 
an emergency. And then you say, well, you had to rapidly deploy 
in order to deal with the concern. Well, what is rapidly 
deploy? Is it a month? Is it 6 months? Is it a year? So I would 
like to have an idea of what typical scenarios would be about 
rapid deployment, because it seems that if it is a rapid 
deployment situation, then we need to go this way versus 
another way. So if you could zero in on that and get back to 
us.
    Mr. Johnson. I shall.
    Senator Brown. And this is for both of you. Beginning in 
2000, Congress placed ceilings, as you know, on military and 
U.S. citizen contractors who can be in Colombia in support of 
Plan Colombia. I was wondering, does this cap on those 
contractors in Colombia hinder the performance to achieve your 
mission objectives, or did it hinder your performance 
objectives? Flip a coin.
    Mr. Johnson. Since I have already pressed the button, I 
will take the coin and be brief.
    It is possible. I do not know whether that had an impact in 
the early period of time, but I know now we are working quickly 
to nationalize those programs, particularly with the Colombian 
military, and not with the objective of staying under that 
ceiling. It has had the collateral benefit of that, but in 
order to take account of the fact that Colombia has made 
extraordinary strides and that the continuing level of support 
that we have provided in the early part of Plan Colombia for 
the Colombian military is not really needed or appropriate now, 
and we need to turn those items and those responsibilities over 
to the Colombians.
    Mr. Wechsler. Yes, I am going to have to defer. I am happy 
to look into the tactical questions about in 2001 and 2002, 
whether there was an impact on a tactical basis. I can say from 
my own personal perspective, from a strategic level, the limits 
that the Congress put in working with then Under Secretary Tom 
Pickering collaboratively on our efforts in Colombia I 
personally think worked out for the better and helped focus the 
strategic thinking at the initial stages of Plan Colombia. That 
was the part that I am personally familiar with. I thought it 
was a positive effort.
    Senator Brown. Do you think the caps will have any effect 
on the ability to accomplish the objectives in Afghanistan? 
Either one.
    Mr. Johnson. It has not affected the work that I am 
responsible for doing at this point.
    Senator Brown. OK.
    Mr. Johnson. I think anything into the future is really 
speculative as the situation there evolves.
    Senator Brown. Yes. As you know, I just got back, and I 
wanted to see if putting a ceiling would have an effect on that 
mission.
    Let me just shift gears for a minute. As the Chairman 
mentioned in her opening statement, I was wondering, there is a 
fundamental question that must be asked by our program managers 
prior to any decision to initiate a procurement action, is 
identifying the objectives of the acquisition and the program 
in determining how to successfully measure the progress towards 
that objective. I am wondering, what are some key patent reform 
measures that we in Congress can track towards determining if 
counternarcotic strategies are being successful? That would be 
for both of you.
    Mr. Johnson. For my part, I think it is important to look 
at the objectives beyond the contract itself. For example, in 
Colombia, for reasons which I am sure made a great deal of 
sense at the time, the original objective was focused on the 
amount of coca under production and cocaine exiting Colombia. 
Strides have been made in that area, but the original objective 
which was set, which was cutting it by 50 percent by a year 
certain, was not met.
    On the other hand, if you look at the strategic objective 
that we had of changing Colombia from a state under threat to 
one which is an exporter of security, we have done extremely 
well there. And I think that by any measure the efforts that 
have been made through these contracting mechanisms have made a 
fundamental contribution to that, particularly by providing the 
ability of the Colombian state to reach into areas which it was 
previously not able to and were ungoverned.
    Senator Brown. Do you have a comment on that at all?
    Mr. Wechsler. Yes, this is a topic very near to my heart. 
As Ambassador Johnson said, there are strategic-level 
approaches to this, but on each and every contract and each and 
every program, we need to have specific program metrics that do 
not just measure inputs but measure outputs. In some cases 
these exist, but in many cases these do not.
    We have just recently issued standard operating procedures 
for our new CN performance metric system to our COCOMs, and we 
are working with each and every COCOM to develop individual 
metrics, some of which will be global in nature because of 
their nature, but many of which will be specifically designed 
for a given program or even for a given country.
    Just last week, I had my Program Objectives Memorandum 
(POM) reviews for the fiscal year 2012 budget process where I 
worked with every one of the combat-and-commands, and we had a 
special session exactly on these metrics and how we were going 
to develop them for each program going forward. So this is a 
critical question that you raise.
    Senator Brown. Thanks. Did you really spend $50,000 to get 
ready for this hearing?
    Mr. Wechsler. I want to be clear about this. It is not to 
get ready for this hearing. It is to get the information that 
you asked for.
    Senator Brown. To get ready for the hearing.
    Mr. Wechsler. Yes. I mean, my staff can brief me for the 
hearing, but to pull over 10 years of data from 15 different 
Department of Defense agencies across three Administrations 
with thousands and thousands of different contracts, given the 
state of the offices I described, we absolutely--I did not have 
two extra people that could work on this. I had to bring in two 
extra people. I cannot hire them immediately, so all I could do 
is hire them in as contractors.
    Senator Brown. So basically 25 grand for a month, so 
somebody made 25 grand for the month to do this?
    Mr. Wechsler. Two and a half people did.
    Senator Brown. Two and a half people. If I may just ask one 
more question?
    Senator McCaskill. Sure.
    Senator Brown. Thanks. Contracting and budgeting as it 
comes to eradication--in Colombia, there was a lot of work, 
time, and money spent to help eradicate drugs, cocaine, and 
everything in Colombia. Is there a plan, a contracting or 
budgeting plan, Mr. Johnson, regarding the eradication of 
poppies in Afghanistan? Because I can tell you, I was there, 
and from here to the Russell Building outside the Forward 
Operating Base (FOB) there were poppy fields in full bloom. Is 
there a contracting or budgeting plan for that you are aware 
of?
    Mr. Johnson. The critical distinction is that the 
Colombians welcomed and asked for and facilitated our work to 
provide an eradication effort, and they thought and continue to 
think it plays a significant role in their ability to extend 
the governance over their country.
    For historical reasons, we do not have any support in 
Afghanistan for the use of herbicides delivered in any way, 
shape, or form, and so we are working toward dealing with this 
problem through other means, principally through providing 
alternative livelihoods for individuals who might be there, as 
well as having a massive interdiction program. The Drug 
Enforcement Administration has its largest contingent of people 
anywhere abroad now in Afghanistan.
    Senator Brown. Thank you. Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Brown.
    Let me follow up a little bit on the metrics, and let me 
follow up with some of the things that you just said, Mr. 
Johnson, about Colombia. You indicated that the original 
performance metric of decreasing production by 50 percent at a 
time certain was not accomplished. In fact, I think that in 
October 2008, the Government Accountability Office (GAO) found 
that from 2000 to 2006, Colombian cultivation of coca actually 
increased during that period of time, and that cocaine 
production also increased. And I understand that. What you 
basically said is the rule of law and the strengthening of the 
Colombia Government as it relates to rule of law has been a 
success, cocaine production and amount of cocaine production 
not so much?
    Mr. Johnson. I think the amount of cocaine and the amount 
of cocaine production and the area under cultivation and the 
yields have, in fact, declined, and the decline has been 
significant. But it has not by any means been what was 
originally projected or sought as a goal.
    It has played, according to our evaluation and according to 
the Colombians, a significant role in allowing them to extend 
the rule of law and to deprive the FARC of a means of 
livelihood and sustenance.
    Senator McCaskill. OK. As you look at that, have there been 
ongoing attempts over the last decade since the strengthening 
of the rule of law has worked well, maybe not as well as the 
original plans to diminish the amount of production, were 
resources shifted from eradication and trafficking work to rule 
of law?
    Mr. Johnson. I would broaden it beyond ``rule of law,'' and 
I think it has to do with really the extension of the ability 
of the Colombian state to govern, to provide governing 
services, not just----
    Senator McCaskill. Governance and rule of law.
    Mr. Johnson. Including rule of law, but I think if you 
focus exclusively on that, you miss a big part of the issue.
    Senator McCaskill. Well, I guess I am confused. You think 
the counternarcotics budget and the amount of money spent on 
contractors for counternarcotics in Colombia is what 
strengthened governance and the underlying rule of law?
    Mr. Johnson. I think it played a major role in providing 
the space for the other programs to work. I do.
    Senator McCaskill. OK. And that has worked?
    Mr. Johnson. We believe that it has substantially worked.
    Senator McCaskill. So are we going to be dramatically 
cutting back the amount of money we spend on eradication and 
production problems down there in the coming years?
    Mr. Johnson. We have been significantly stepping down over 
time. I think that we will be devoting more and more of our 
effort to supporting the Colombians in manual eradication 
programs. But I think if you look at the geography of Colombia 
and the transportation routes and the ability of the government 
under any conceivable scenario to extend its reach over the 
entire country, there is going to be a continuing role for 
aerial eradication well into the future.
    Senator McCaskill. In 2003, as you know, Congress passed a 
law saying that we should transfer counternarcotics contracts 
in Colombia away from contractors and to Colombia nationals. 
According to the reports to Congress that our staff has 
reviewed, the Department has not fully transferred any of those 
activities in Colombia. Is that accurate?
    Mr. Johnson. I think I would like to have an opportunity to 
go over our documentation with your staff because I think that 
there are some places where we have, if you will, fully turned 
over things. But this is an ongoing effort, and it is not one 
that we slacked away from. We anticipate that, in terms of the 
support of the funds under my Administration, we would be 
looking to conclude our support significantly and eventually 
entirely for the Colombian military. But we look to the 
Colombian police as a long-term partner that we would work with 
well into the future. And our colleagues at the Department of 
Defense, of course, would continue with their engagement and 
through the foreign military financing and sales program to 
continue an engagement with the Colombian military as well.
    Senator McCaskill. In 2004, Congress limited the number of 
contractors in Colombia. Has that limitation been helpful or 
has it been a harmful policy? And is that a way to get at this 
as somebody who continues to be frustrated, or what Mr. 
Wechsler talked about, that is that we have just exploded 
contracting without appropriate oversight or personnel to keep 
track of it in this government over the last decade? Should we 
start setting a number on how many contractors are allowed in-
country?
    Mr. Johnson. Well, in the case of Colombia, as I mentioned 
earlier, we have cut that figure in half, from 1,200 to 
slightly under 600.
    Senator McCaskill. But the law required you to do that. The 
law says that you had to limit the number of contractors 
allowed in Colombia to 600. I do not think that--I mean, I am 
assuming you did it because the law told you you had to?
    Mr. Johnson. Well, we would have done it, whether we 
thought it was a great idea, because the law told us that we 
had to. But we have been engaged in that period of time in a 
program that we refer to a nationalization, which is turn these 
responsibilities and these programs over to the Colombians 
during the course of that period of time.
    Senator McCaskill. Do you think it would be helpful for us 
to do a number limitation on contractors in other environments 
around the world?
    Mr. Johnson. Speaking for myself, I think maintaining some 
flexibility in that area makes more sense than a rigidity. But 
I know that will require an active interaction with you and 
your staff to make sure that we are following the ideas that 
you think are appropriate in terms of shrinking the contractor 
footprint worldwide.
    We are looking at ways to do that. I read newspapers. I 
know that this has changed. We are looking at ways to engage 
more fully with our State and local authorities for the 
provision of police training, for example, where there might 
not be a Federal solution, and by so doing, we would be cutting 
into some things that we have traditionally done through only a 
contractor solution.
    On the other hand, as I look at that as a model, I am still 
thinking that I am going to certainly need significant 
contractor support for life support for these individuals in 
environments which might be quite challenging.
    Senator McCaskill. Don't misunderstand the view that I hold 
about contracting. It is not the number of contractors that 
bothers me. My urgency about reducing contracting is because it 
has become very clear to me that we do not have adequate 
contracting oversight in government, and this is an equal 
opportunity sin. We spend a significant amount of time on 
Defense and State because you are two of the big ones. But I 
think Energy is next up, isn't it? The Department of Energy, we 
will be looking to see if they hire contractors to help them 
get ready for the hearing we are going to have about 
contractors at the Department of Energy. Homeland Security, 
same thing.
    So, either we are going to get the right contracting 
oversight in place, or we are going to have to reduce the 
contracting, one or the other, because the current situation I 
think is untenable.
    Let us go back to the metrics for a minute. Office of 
National Drug Control Policy (ONDCP), is it important? Are the 
metrics--do you all feel like that there is a coordinated 
effort with ONDCP at the top? Or do you all feel that it is 
still a siloed effort?
    Mr. Johnson. I have an active engagement with Mr. 
Kerlikowske, and I look to him to provide the type of guidance 
that I will then implement in the international programs for 
which I am responsible. The clear shift with a real focus on 
demand reduction, prevention, and treatment, as he addresses 
it, is something that we have begun a shift to. We are looking 
very strongly at that in all of our programs. You will see it 
in Afghanistan and Mexico and so forth. That is one signal.
    We also look at the price/purity statistics that he uses as 
a measure to gauge in some measure whether the programs that we 
have, which are aimed at eradication and interdiction, are 
having an effect on the streets in the United States.
    Senator McCaskill. And I certainly think those are both 
great additions to your repertoire, that price/purity is very 
important, as you all know, I used to know a lot more about 
that when I was actively prosecuting, but the purity of heroin 
in this country has just skyrocketed and it has gotten 
inexpensive because of it. We are seeing more problems in local 
communities from OxyContin than heroin only because OxyContin 
has gotten more expensive than heroin in some places.
    So getting back to ONDCP, they require agencies to submit 
performance reports on counternarcotics activities. In 2009, 
the Defense Department presented 285 performance measures for 
your counternarcotics activities. However, in a recently 
released preliminary report from GAO, it states that your 
performance measures were missing key attributes of successful 
measures in the database and were otherwise inadequate.
    Can you give me an example, Mr. Wechsler, of the 
unclassified performance measures used by the Defense 
Department? What would be an example of a performance measure 
that you all would be looking to to see if you are doing a good 
job or a bad job?
    Mr. Wechsler. Sure. It depends on the program, but, for 
instance, one example is on the JIATF-South's efforts to do the 
aerial and maritime domain awareness and to attack the air 
bridge system. It is the proportion overall of the tracks that 
are going in that we believe that are drug-related that were 
interdicted, and that is a top-line metric that then will have 
very many submetrics underneath it. But that is a very good 
metric to be looking at for that line of activity. There are 
other lines of activity that talk about building partner 
capacity for which there are different metrics about how 
capable the individual foreign force that we are trying to 
train is and very much akin to the way that we train military.
    Senator McCaskill. I know that you have hired a contractor 
to help you with revising your guidelines for performance 
measures. Who is the contractor that was hired for this 
project?
    Mr. Wechsler. It is Hagerty.
    Senator McCaskill. Hagerty. The same contractor that is 
helping you with this hearing?
    Mr. Wechsler. That is right.
    Senator McCaskill. But there is somebody between them and 
you, isn't there? Isn't there somebody that you hired, then 
they sub-hired Hagerty? Isn't it Lockheed?
    Mr. Wechsler. Oh, yes, well, there is--and I am happy to 
get into this. We do a lot of our contracting through an office 
called the Narcoterrorism Technology Program Office, and they 
have five primes, and the primes do subprimes. And that is 
where not all but a good deal of the contracts go through, 
particularly when you want to do something quickly. I decided 
that I could not wait for the personnel system of the 
Department of Defense to give me the personnel that I needed to 
work on performance metrics, and we needed to start more 
rapidly.
    Senator McCaskill. And this is a constant theme we hear.
    Mr. Wechsler. Absolutely.
    Senator McCaskill. But why do we need somebody to take a 
cut? I mean, why is Lockheed getting a cut of this contract 
that the Hagerty people did, getting data, trying to get data--
I do not think we have successfully gotten the data yet for 
this hearing--and on the performance measures? Are they taking 
a cut, is Lockheed taking a cut on that, too?
    Mr. Wechsler. Undoubtedly as a prime they would have a 
management responsibility, and we can get back to you on 
exactly what that is. The process is set up to provide rapid 
action when we need rapid action, and so you have the five 
primes that compete for their position as that. The alternative 
is to put something out for independent contractors. Of course, 
it would then take the same amount of time that it would take--
or probably sometimes more than it would take for me to hire 
someone into my office. So that is why we are where we are.
    It is this office--and we will certainly--I should have 
mentioned earlier--get back to what Senator McCain said about 
all the things that we have done in our office, we will get you 
all that in writing. But a lot of the things that we have done 
in our office have been most directly about this office, the 
CNTPO, which we most have direct oversight and working with, to 
improve their ability to contract and to oversee contracts, and 
there has been a great number of steps that we have taken in 
the last year towards that end, and they are not finished.
    Senator McCaskill. It is just a weird system that has 
evolved, that you have got these big companies that essentially 
are providing inherently government functions by subbing out 
quickly to other people. It is almost like we created a process 
to make sure that we are hiring in a way that is fair and open-
minded or that we are contracting in a way that is fair and 
open-minded, and then we have this huge short circuit that all 
you have got to do is get primes and do tasks. And if you get 
primes and do tasks, then they get a middleman cut. Can you 
imagine the amount of money we are spending on the middleman 
cut in this government? I mean, in the Pentagon alone, it is 
billions of dollars. It is so frustrating to me. And this would 
never occur in the private sector. This is where so much money 
is being wasted, and it is all just to get around the process.
    It is like you said, Mr. Johnson. The ANCs are great 
because you can get around the cumbersome process that takes so 
long. And I am aware of this. I do not mean to be yelling at 
you guys about it, because it is a reality. You want the work 
done and you need it done quickly. So we have to figure out how 
we do a better job on the complexity of hiring and the time of 
contracting because it is costing us much more money than the 
problem we tried to solve by making it so complex. And we can 
do it because we print money.
    Mr. Wechsler. If I could say, Senator, I completely agree 
with your assessment. I just spent the last 8 years in the 
private sector, and, of course, we did contract in the company 
that I worked with quite often. And if we wanted to contract, I 
just contracted something.
    Now, you do not want that system, of course, in government 
because you do not want an individual without any oversight 
making those kinds of decisions with taxpayer dollars. So there 
is this balancing effort that has resulted in the system that 
you are accurately describing, and I very much look forward to 
working with you, at least in the one area that I have a say 
on, and help figuring out how to make sure that if we are out 
of balance, that we can balance it, that we can rebalance it.
    Senator McCaskill. In the President's national drug control 
budget for fiscal year 2007, there is a discussion of an 
improvement underway to establish a comprehensive Performance 
Reporting System--I do not think we have used enough acronyms 
in this hearing; it is hard to get through these hearings 
without a lot of acronyms--a PRS that will track resource 
allocation, program effectiveness, and provide prompt feedback 
on the agency's progress within the National Drug Control 
Strategy.
    Now, if you juxtaposition that up with the reality that one 
of the things we learned in the GAO report is that United 
States Southern Command (SOUTHCOM) and United States Central 
Command (CENTCOM) and JIATFs, all components that have 
operational control over counternarcotics, they say that their 
personnel does not use the main counternarcotics database. 
Well, this is a problem. You have got the three different parts 
of the defense that are supposed to be reporting into a 
database so we can manage these contracts, and they do not use 
it.
    How can you do performance measures--I do not care how many 
contractors you hire. How can you do performance measures if 
you cannot get the commands to even use the database you have? 
And on top of that, guess what? We are about to create a new 
database.
    Mr. Wechsler. You are exactly right. This was, again, the 
topic--this specifically was the topic of the conversation that 
we had just last week in the context of our annual POM reviews.
    In my experience, putting on my management consultant hat, 
quite often the drivers of situations like this when I have 
seen it in the past is that the performance--there is a variety 
of them, but the performance metrics themselves are not useful 
to manage the programs, and that people will use the database 
when they themselves find that--first and foremost, when they 
are told to do it, but also when they themselves find that it 
is useful for running their own programs that they are 
responsible for. They see this as an additional task that is 
separate and devoid from their own responsibilities to manage 
the program. Then they are going to be lax at using it. And you 
mentioned before the weaknesses in the previously existing 
performance metrics system. And so I see these two failings as 
being intricately links. You get the right performance metrics 
that measure the right things that help you run the programs in 
the right way, and then you get the right database to track 
those particular efforts. Then the people who are running those 
programs will not only do it because they are told to do it, 
but will want to use this metric. And then we at a headquarters 
level can use the individual data and the aggregated data to do 
the kind of oversight at a policy and programmatic level that 
we need to do in order to provide the oversight that we are 
required by Congress.
    Senator McCaskill. I mean, don't you think it is kind of 
problematic that we would start, whether a contractor is 
developing PRS, I assume? Do you know?
    Mr. Johnson. I do not know. I would have to consult with 
Mr. Kerlikowske.
    Senator McCaskill. Well, we will follow up with them. I bet 
you it is a contractor. What do you bet? I bet it is. And we 
will check with them about the PRS system, but we have had a 
hearing on databases, and if there is one thing that we have 
more of in government than contractors, it is databases. And it 
is databases that are not being utilized fully. They are not 
being utilized effectively. They are costing us a lot of money. 
They are not talking to one another. And at the end of the day, 
it is going to be like that general in Kuwait told me a long 
time ago when I was asking him about the complete and abject 
failure of contracting oversight in Iraq. He said, ``I wanted 
three kinds of ice cream. I wanted it in the mess. I wanted it 
yesterday, and I did not care how much it cost.''
    That is out there, and it is particularly out there in your 
neck of the woods, Mr. Wechsler.
    We are buying airplanes--which one said we were buying 
airplanes? You were buying airplanes, Mr. Johnson.
    Mr. Johnson. We are in Merida, yes, and we are also 
acquiring some for both Afghanistan and for Iraq.
    Senator McCaskill. Are we contracting with people to buy 
airplanes and they are going to fly them? Or are we actually 
buying them and hiring contractors to fly them? It was my 
understanding we were contracting aviation, including the 
capital requirements of aviation. And now you tell me we are 
buying airplanes. Can you explain?
    Mr. Johnson. We are acquiring the air frames, and we are 
contracting for the flying and for maintaining them.
    Senator McCaskill. And have we always bought the air frames 
at the State Department, or have we contracted for someone else 
to buy the air frames and fly them?
    Mr. Johnson. We have in limited circumstances done leasing 
of aircraft. I personally, in the areas where we are operating, 
do not really prefer that because of the safety issues that it 
raises. If we can acquire the aircraft and have a contract over 
which we have very direct oversight provide the maintenance and 
provide the piloting for us, I am much more confident of the 
safety of those aircraft and the safety of the passengers on 
board them.
    Senator McCaskill. What percentage of the aircraft that you 
have in the air doing counternarcotics work are being piloted 
by contractors?
    Mr. Wechsler. I am going to have to get you that exact 
number, of course, or as close as we can get to that exact 
number. I am just thinking, off the top of my head, the 
programs that I know of. I know of some that are like that, 
but, frankly, some of the more prominent ones and the ones that 
we work on like the effort to provide MI-17 helicopters to the 
Afghan counternarcotics police, those are ones where we buy the 
helicopters. We have U.S. personnel that are there. We are 
training up Afghans. There is some contractor assistance to 
help in the training and to help with the maintenance.
    Senator McCaskill. Right.
    Mr. Wechsler. But all that is designed to provide Afghan 
capability. It is not a permanent thing. It is designed as a 
training function.
    Senator McCaskill. I understand. Once we get all this 
data--and let me turn to----
    Mr. Johnson. Senator, could I correct something I said 
before?
    Senator McCaskill. Yes.
    Mr. Johnson. I think I was focusing on these new 
acquisitions that we had in Afghanistan and Iraq where the 
contracting for the pilots and the maintenance is going to take 
place. Just as Mr. Wechsler was mentioning about transfer of 
skill in Afghanistan, we have worked very hard, particularly in 
the case of Colombia, to transfer those training and skills. So 
all of the helicopters that are operating there, for example, 
are piloted by Colombian personnel, and much of the maintenance 
is also provided by them with limited oversight by a contractor 
that we provide.
    On the other hand, in Iraq and Afghanistan, the aircraft 
that we are operating there are for the most part, I think, 
exclusively to provide lift for our own personnel, and in that 
case, we are not engaged in trying to build capacity yet for 
the Afghans for that type of work.
    Senator McCaskill. Well, let me focus back on 
counternarcotics, because I believe you referred to buying 
airplanes for Merida, right?
    Mr. Johnson. Yes, ma'am, that is correct.
    Senator McCaskill. Not Afghanistan and Iraq. The airplanes 
you bought were for counternarcotics efforts associated with 
Mexico.
    Mr. Johnson. Yes ma'am. We are in the process of buying 
helicopters as well as one fixed-wing aircraft.
    Senator McCaskill. OK. Once we get all this data--do you 
all talk to each other about what kind of airplanes you are 
buying?
    Mr. Johnson. Absolutely.
    Senator McCaskill. OK. So is there not a way that we could 
buy airplanes on existing contracts? I am sure the Defense 
Department has a much better deal on these aircraft than you 
are ever going to get at the State Department.
    Mr. Johnson. We are buying them through the Army Command, 
and we are using their contract.
    Senator McCaskill. All right. So it is going through Army 
Command.
    Mr. Johnson. Absolutely.
    Senator McCaskill. OK. Well, good. See? We got some great 
news out of this hearing.
    OK. So we still have a problem on this data. I am going to 
try to go as many hearings as I can possibly go without 
subpoenas. But we still have a problem on the data.
    Now, we made a broad request, and we have a little bit of a 
chicken-and-egg thing going on because we have learned the hard 
way that if you make a broad request, you may get enough 
information you can really use. But we are more than happy to 
make a less broad request if we are actually going to get what 
we ask for.
    So what I would suggest we do is to have your staffs get 
with the staff of the Subcommittee. Now, we are not going to 
let you decide what data you can give us, but you know what we 
want to do. We want to get a handle on whether or not you know 
and can produce information about the contracts you have, how 
they were issued, the scope of the work they are doing, the 
performance measures that are there, and if somebody is looking 
over the shoulder of these contractors and seeing if we are 
getting a bang for our buck, if we are getting value. That is 
the data we need. And we need it not to take 3 months, and we 
need not to have a situation where you give us information and 
it is stuff we could have gotten easily ourselves and we have 
done enough work to know that what you gave us was not even 
complete, and you did not even admit it was complete until 
after we confronted you with it. And then you come to the 
hearing today, and you clearly have a lot more numbers than we 
have ever heard before, which makes it hard for us to prepare 
for the hearing to ask the kind of questions that I would like 
to ask. If I had all those numbers that you had indicated at 
the beginning of the hearing, Mr. Johnson, if I had that 
information, I could have done a much better job drilling down 
on contract oversight today than I was able to do because of 
the lack of data.
    So I suggest we try this one more time. I suggest we get 
your staffs with our staff, and you give us input as to how 
quickly you can get us the kind of data that both of you are 
smart enough to know that we need to do adequate contract 
oversight, and let us go from there. And we are going to try 
one more time, and if we are still frustrated at the end of 
this process, then we will issue subpoenas. Does that seem 
fair?
    Mr. Wechsler. Absolutely, Senator.
    Senator McCaskill. Mr. Johnson.
    Mr. Johnson. We are ready to proceed on that basis.
    Senator McCaskill. OK. We will try again. And we are not 
going to go away, even though we have to move on to the 
Department of Energy and arm wrestle them on contracting 
oversight. We want to stay with this because I do not want to 
move from this topic until everyone is aware, especially the 
contractor community, that there is no place you can be in the 
Federal Government that we are not going to be trying to look 
and see what is going on. And the people who are managing the 
contracts in every nook and cranny of the Federal Government 
are going to have to realize that these kinds of questions are 
going to be asked on an ongoing and consistent basis because 
this Subcommittee is not going anywhere. There is way too much 
work to do. It is amazing to me that there has not been one of 
these subcommittees much sooner in the process because what 
happened, we had an explosion of contracting, and everyone was 
so busy exploding contracting, nobody was paying attention as 
to whether or not there was adequate oversight, adequate 
management, and adequate data collection so we could keep track 
of whether or not they were doing a good job, to say nothing of 
the problem we have with the middleman. We have some people 
getting very rich off taxpayers that are just shuffling 
contracts, and we have to make sure that we can hopefully fix 
that problem, and that is a long-term goal of this Subcommittee 
and obviously a work in progress.
    I appreciate both of you being here. I appreciate the time 
and energy you put into preparing. We are not done, but I feel 
confident that you both understand where we need to go with 
this, and we will look forward to continuing to work with your 
staffs in a cooperative fashion, and hopefully in another few 
months we can come back around and tie this up and be confident 
that you all know what contracts are out there and that they 
are fully being managed and that you do not have a situation 
where there is a far-flung embassy that is doing contracts and 
you really do not have a handle on it, and you do not have a 
situation where commanders are saying one thing, the 
acquisition is doing something else, and nobody has even 
bothered to manage the contract, which essentially is what you 
were kind of saying in a very diplomatic way in your opening 
statement. And believe me, I am not shocked. I see it, we see 
it time and time again.
    So thank you both, and this hearing is adjourned.
    [Whereupon, at 12:22 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7941.001

[GRAPHIC] [TIFF OMITTED] T7941.002

[GRAPHIC] [TIFF OMITTED] T7941.003

[GRAPHIC] [TIFF OMITTED] T7941.004

[GRAPHIC] [TIFF OMITTED] T7941.005

[GRAPHIC] [TIFF OMITTED] T7941.006

[GRAPHIC] [TIFF OMITTED] T7941.007

[GRAPHIC] [TIFF OMITTED] T7941.008

[GRAPHIC] [TIFF OMITTED] T7941.009

[GRAPHIC] [TIFF OMITTED] T7941.010

[GRAPHIC] [TIFF OMITTED] T7941.011

[GRAPHIC] [TIFF OMITTED] T7941.012

[GRAPHIC] [TIFF OMITTED] T7941.013

[GRAPHIC] [TIFF OMITTED] T7941.014

[GRAPHIC] [TIFF OMITTED] T7941.015

[GRAPHIC] [TIFF OMITTED] T7941.016

[GRAPHIC] [TIFF OMITTED] T7941.017

[GRAPHIC] [TIFF OMITTED] T7941.018

[GRAPHIC] [TIFF OMITTED] T7941.019

[GRAPHIC] [TIFF OMITTED] T7941.020

[GRAPHIC] [TIFF OMITTED] T7941.021

[GRAPHIC] [TIFF OMITTED] T7941.022

[GRAPHIC] [TIFF OMITTED] T7941.023

[GRAPHIC] [TIFF OMITTED] T7941.024

[GRAPHIC] [TIFF OMITTED] T7941.025

[GRAPHIC] [TIFF OMITTED] T7941.026

[GRAPHIC] [TIFF OMITTED] T7941.027

[GRAPHIC] [TIFF OMITTED] T7941.028

[GRAPHIC] [TIFF OMITTED] T7941.029

[GRAPHIC] [TIFF OMITTED] T7941.030

[GRAPHIC] [TIFF OMITTED] T7941.031

[GRAPHIC] [TIFF OMITTED] T7941.032

[GRAPHIC] [TIFF OMITTED] T7941.033

[GRAPHIC] [TIFF OMITTED] T7941.034

[GRAPHIC] [TIFF OMITTED] T7941.035

[GRAPHIC] [TIFF OMITTED] T7941.036

[GRAPHIC] [TIFF OMITTED] T7941.037

[GRAPHIC] [TIFF OMITTED] T7941.038

[GRAPHIC] [TIFF OMITTED] T7941.039

[GRAPHIC] [TIFF OMITTED] T7941.040

[GRAPHIC] [TIFF OMITTED] T7941.041

[GRAPHIC] [TIFF OMITTED] T7941.042

[GRAPHIC] [TIFF OMITTED] T7941.043

[GRAPHIC] [TIFF OMITTED] T7941.044

[GRAPHIC] [TIFF OMITTED] T7941.045

[GRAPHIC] [TIFF OMITTED] T7941.046

[GRAPHIC] [TIFF OMITTED] T7941.047

[GRAPHIC] [TIFF OMITTED] T7941.048

[GRAPHIC] [TIFF OMITTED] T7941.049

[GRAPHIC] [TIFF OMITTED] T7941.050

[GRAPHIC] [TIFF OMITTED] T7941.051

[GRAPHIC] [TIFF OMITTED] T7941.052

[GRAPHIC] [TIFF OMITTED] T7941.053

[GRAPHIC] [TIFF OMITTED] T7941.054

[GRAPHIC] [TIFF OMITTED] T7941.055

[GRAPHIC] [TIFF OMITTED] T7941.056

[GRAPHIC] [TIFF OMITTED] T7941.057

[GRAPHIC] [TIFF OMITTED] T7941.058

[GRAPHIC] [TIFF OMITTED] T7941.059

[GRAPHIC] [TIFF OMITTED] T7941.060

[GRAPHIC] [TIFF OMITTED] T7941.061

[GRAPHIC] [TIFF OMITTED] T7941.062

[GRAPHIC] [TIFF OMITTED] T7941.063

[GRAPHIC] [TIFF OMITTED] T7941.064

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
